TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Actions Can Be Taken to Improve
                          the Identification of Tax Return
                          Preparers Who Submit Improper
                         Earned Income Tax Credit Claims



                                      September 14, 2010

                              Reference Number: 2010-40-116




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


ACTIONS CAN BE TAKEN TO IMPROVE                        were identified as high risk in the prior year but
THE IDENTIFICATION OF TAX RETURN                       had not received a Due Diligence Visit (DDV)
PREPARERS WHO SUBMIT IMPROPER                          because they were included in a control group.
EARNED INCOME TAX CREDIT CLAIMS                        In addition, the IRS did not exclusively use the
                                                       probability score it developed when identifying
                                                       and selecting preparers for a DDV. As a result,
Highlights                                             the IRS incorrectly selected 378 tax preparers
                                                       and missed 655 preparers. TIGTA estimates
Final Report issued on September 14,                   the shift in tax return preparers within the DDV
2010.                                                  treatment category could result in the IRS
                                                       paying $25 million less in erroneous
Highlights of Reference Number: 2010-40-116            Tax Year 2010 EITC claims. Finally, the quality
to the Internal Revenue Service Commissioners          of the DDVs limited the success of IRS efforts to
for the Small Business/Self-Employed Division          reduce tax return preparer noncompliance.
and the Wage and Investment Division.
                                                       WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS
                                                       TIGTA recommended that the Commissioner,
The Earned Income Tax Credit (EITC) was                Wage and Investment Division:
created in 1975 to offset the impact of Social
Security taxes for individuals who work but have       •   Include a risk factor in its computation of the
low incomes. The amount of EITC claimed has                probability score for tax return preparers
increased steadily. The American Reinvestment              who were identified in a previous year as a
and Recovery Act of 2009 increased the Credit              high-risk tax return preparer and were
for families with three or more EITC qualifying            included in the control group.
children, further increasing the amount of             •   Select high-risk tax return preparers for a
benefits that will be claimed in Tax Year 2009.            DDV based on the preparer’s probability
                                                           score and volume of EITC tax returns
WHY TIGTA DID THE AUDIT
                                                           prepared.
This audit was initiated because tax return
                                                       The Commissioner, Small Business/
preparers play a significant role in EITC
                                                       Self-Employed Division, should ensure the
noncompliance. The Internal Revenue Service
                                                       DDVs are properly performed, with adequate
(IRS) estimates between $11 billion and
                                                       case documentation in support of the
$14 billion in erroneous EITC claims are paid
                                                       assessment/nonassessment of penalties.
annually. For Tax Year 2008, individuals
claimed $49.2 billion in EITC; 66 percent of the       In their response to the report, IRS officials
tax returns were prepared by tax return                agreed to implement actions to improve the
preparers. The objective of this review was to         probability scoring and the quality of the DDVs.
determine whether the EITC Paid Preparer               However, they did not agree to revise the
Strategy effectively identifies and addresses tax      selection of high-risk tax return preparers for a
return preparer EITC noncompliance.                    DDV. Management indicated the current
                                                       process provides the flexibility needed to
WHAT TIGTA FOUND                                       maximize the use of resources and allows for
The IRS has taken steps to strengthen the EITC         consideration of additional factors when needed.
Preparer Strategy for Fiscal Year 2010. Our
                                                       Our analysis shows the IRS’ process does not
review of the IRS’ methodology determined that
                                                       result in the most efficient and effective use of
actions can be taken to further improve the
                                                       resources. Our analysis is based on the IRS’
effectiveness of identifying high-risk EITC tax
                                                       process for quantifying the success of the DDV
return preparers.
                                                       Program and the most current data available.
Risk factors used in Fiscal Year 2010 did not
include identification of tax return preparers who
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 14, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Actions Can Be Taken to Improve the
                             Identification of Tax Return Preparers Who Submit Improper
                             Earned Income Tax Credit Claims (Audit # 200940014)

 This report presents the results of our review to determine whether the Earned Income Tax
 Credit Paid Preparer Strategy effectively identifies and addresses tax return preparer
 noncompliance. This audit was conducted as part of the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2009 Annual Audit Plan and addresses the major management
 challenge of Erroneous and Improper Payments and Credits.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                                        Actions Can Be Taken to Improve the
                                 Identification of Tax Return Preparers Who Submit
                                    Improper Earned Income Tax Credit Claims




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Earned Income Tax Credit Paid Preparer Strategy
          Is the Framework for Efforts to Address Tax Return
          Preparer Compliance ..................................................................................... Page 4
          Actions Can Be Taken to Improve the Identification
          of Tax Return Preparers Who Submit Erroneous Earned
          Income Tax Credit Claims ............................................................................ Page 5
                    Recommendations 1 and 2: ............................................... Page 9

          The Quality of Due Diligence Visits Limited Success
          of Efforts to Reduce Noncompliance ............................................................ Page 10
                    Recommendation 3:........................................................ Page 13

          Improvements Are Needed to Accurately Measure
          Effectiveness of the Earned Income Tax Credit Paid
          Preparer Strategy on Reducing Noncompliance ........................................... Page 13

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measure ................................................................ Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 24
                                   Actions Can Be Taken to Improve the
                            Identification of Tax Return Preparers Who Submit
                               Improper Earned Income Tax Credit Claims




                                      Abbreviations

DDV                            Due Diligence Visit
EIC                            Earned Income Credit
e-file, e-filed, e-filing      Electronically file(d); electronic filing
EITC                           Earned Income Tax Credit
FY                             Fiscal Year
IRS                            Internal Revenue Service
PTIN                           Preparer Tax Identification Number
SB/SE Division                 Small Business/Self-Employed Division
SSN                            Social Security Number
TIGTA                          Treasury Inspector General for Tax Administration
TY                             Tax Year
                                      Actions Can Be Taken to Improve the
                               Identification of Tax Return Preparers Who Submit
                                  Improper Earned Income Tax Credit Claims




                                                Background

The Earned Income Tax Credit (EITC) was created in 1975 to offset the impact of
Social Security taxes for individuals who work but have low incomes. For Tax Year (TY) 2008,
individuals claimed $49.2 billion in EITC.1 The amount of EITC claimed has increased steadily.
The American Reinvestment and Recovery Act of 20092
increased the credit for families with three or more EITC
qualifying children further increasing the amount of            The IRS recognized the
benefits that will be claimed in TY 2009.                  significance tax return preparers
                                                                               play in EITC compliance and
The refundable3 nature of the EITC and the complexity         has developed the EITC Paid
of eligibility requirements increase the likelihood of             Preparer Strategy.
taxpayer error and fraud. The Internal Revenue Service
(IRS) estimates between $11 billion and almost $14
billion in erroneous EITC claims are paid annually. Figure 1 provides the volume of EITC
claims, along with the dollars claimed and the percentage of EITC tax returns prepared by tax
return preparers, for TYs 2006 through 2008.
        Figure 1: Number and Dollars of EITC Claims for Tax Years 2006–2008
                                                   TY 2006                 TY 2007                  TY 2008
      Number of Tax Returns
                                                 22.7 million            24.1 million             23.7 million
      Claiming the EITC
      Dollars in EITC Claims                     $44.1 billion          $48.0 billion             $49.2 billion
      Percent of Returns Filed
                                                      70%                    68%                      66%
      by Paid Preparers
    Source: IRS EITC Fact Sheet. Data for TY 2008 is through June 30, 2009.

The IRS recognizes the role tax return preparers play in ensuring compliance with EITC
requirements. Beginning in 1999, the IRS developed a strategy in an effort to increase tax return
preparer compliance with the EITC requirements. The IRS refers to this strategy as the EITC
Paid Preparer Strategy.




1
  For EITC returns filed through June 30, 2009
2
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
3
  If a credit is refundable, the amount of the credit in excess of the taxpayer’s tax liability is refunded to the
taxpayer.
                                                                                                                     Page 1
                                   Actions Can Be Taken to Improve the
                            Identification of Tax Return Preparers Who Submit
                               Improper Earned Income Tax Credit Claims



Tax return preparers play a significant role in EITC compliance
The Taxpayer Relief Act of 19974 required tax return preparers to meet the Due Diligence
requirements set forth in regulations prescribed by the Secretary of the Treasury and established
a penalty of $100 for each failure to comply. Treasury Regulations established four Due
Diligence rules subject to the requirements in the Taxpayer Relief Act of 1997 and provided tax
return preparers guidance on complying with the rules. In 2008, the IRS issued expanded
regulations clarifying the Due Diligence rules in addition to providing a performance standard
for the knowledge requirement. This expanded regulation is effective for tax returns filed after
December 31, 2008. Figure 2 provides a summary of the Due Diligence rules.
                       Figure 2: Summary of EITC Due Diligence Rules
          Requirement                                          Explanation of Requirement
                                       Tax return preparers must complete the Paid Preparer’s Earned Income
Completion of EITC Eligibility
                                       Credit (EIC) Checklist (Form 8867) or a similar record based on
Checksheet
                                       information provided by the taxpayer.
                                       Tax return preparers must keep the EIC Worksheet (found in the various
Computation of the EITC                U.S. Individual Income Tax Return (Form 1040 series) instructions or an
                                       equivalent that demonstrates how the credit was computed.
                                       Tax return preparers must 1) not know, or have reason to know, that any
                                       information used in determining eligibility for or the amount of the EITC
                                       is incorrect; 2) not ignore the implications of information furnished to, or
                                       known by, the tax return preparer; 3) make reasonable inquiries if a
Knowledge
                                       reasonable and well-informed tax return preparer, knowledgeable in the
                                       law, would conclude the information furnished appears to be incorrect,
                                       inconsistent, or incomplete, and 4) contemporaneously document in the
                                       files the reasonable inquiries made and the responses to these inquiries.
                                       Tax return preparers must maintain Form 8867 and the EITC Worksheet,
                                       or the equivalent, to record how and when the information used to
                                       complete the forms was obtained and verification of the identity of the
Record Retention
                                       person furnishing the information. This information must be maintained
                                       for 3 years after the June 30th following the date the tax return or
                                       EITC claim was presented for signature.
Source: The IRS public web site – IRS.gov.

This review was performed at the Wage and Investment Division Office of Electronic Tax
Administration and Refundable Credits Headquarters and the Small Business/Self-Employed
(SB/SE) Division Office of Examination Headquarters in Washington, D.C., during the period


4
 Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                                                                                            Page 2
                               Actions Can Be Taken to Improve the
                        Identification of Tax Return Preparers Who Submit
                           Improper Earned Income Tax Credit Claims



July 2009 through June 2010. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                                Actions Can Be Taken to Improve the
                         Identification of Tax Return Preparers Who Submit
                            Improper Earned Income Tax Credit Claims




                                 Results of Review

The Earned Income Tax Credit Paid Preparer Strategy Is the
Framework for Efforts to Address Tax Return Preparer Compliance
In January 2010, the IRS announced plans to strengthen its regulation of tax return preparers.
Currently, the level of oversight the IRS provides for each tax return preparer depends on
                                        whether the preparer holds a professional license, is
                                        enrolled to practice before the IRS, and chooses to
   The EITC Paid Preparer Strategy      electronically file (e-file). Representatives from the
        serves as a model for           EITC Paid Preparer Strategy team were active participants
     enforcement of tax preparer        in the task force that developed the recommendations for
    compliance within the new IRS
       Paid Preparer Strategy.          the IRS’ expansion of its regulation of tax return preparers.
                                        They are also serving on the implementation team. The
                                        new IRS tax return preparer regulations will expand the
IRS’ oversight of preparers and make the minimum tax return preparer requirements more
consistent throughout the tax preparation industry.
In addition, the IRS used the EITC methodology to identify noncompliant tax return preparers as
the framework for identifying tax return preparers for general compliance visits in Fiscal Year
(FY) 2010 as part of the new Paid Preparer Strategy. Furthermore, the executive responsible for
implementing the IRS efforts to improve the regulation of tax return preparers indicated the IRS
is using the EITC Paid Preparer Strategy as the framework to build a comprehensive tax return
preparer compliance program.

Continual actions have been taken to improve EITC tax return preparer
compliance
The IRS EITC Office has made strides in its effort to increase EITC tax return preparer
compliance. The EITC Office continually evaluates its efforts to address noncompliant tax
return preparers. Since FY 1999, the IRS has focused on improving its education and outreach to
the tax return preparer community. The IRS has also tested processes to identify potentially
noncompliant tax return preparers and tested various solutions for treating the noncompliance.
In FY 2010, the IRS began testing a consolidated approach to tax return preparer compliance by
leveraging what it has learned and developing a process to match the risk of noncompliance with
the type of treatment a tax return preparer receives.




                                                                                              Page 4
                                   Actions Can Be Taken to Improve the
                            Identification of Tax Return Preparers Who Submit
                               Improper Earned Income Tax Credit Claims



                       Figure 3: Highlights of EITC Return Preparer Efforts
          Fiscal Year                       Focus of EITC Return Preparer Efforts
        1999 to 2002        Focus on outreach and education.
        2003 to 2004        Focus shifts to compliance. Tested various compliance treatments.
                            Focus expands to include outreach and compliance. Began testing
        2005 to 2009        various methods to identify and select return preparers. Testing of
                            compliance treatments continues.
                            Focus on leveraging lessons learned from prior efforts. Developed a
        2010                risk-based scoring and selection methodology combined with various
                            compliance treatments.
     Source: IRS EITC Paid Preparer Strategy information.

Actions Can Be Taken to Improve the Identification of Tax Return
Preparers Who Submit Erroneous Earned Income Tax Credit Claims
One of the most significant challenges the IRS faces in its efforts to address tax return preparers’
EITC compliance is its inability to identify everyone who prepares tax returns. Currently, there
is no requirement for tax return preparers to use one consistent identification number (Preparer
Tax Identification Number, or PTIN) on a tax return to enable the IRS to identify the individual
who prepared a particular tax return. In July 2009, the Treasury Inspector General for Tax
Administration (TIGTA) reported that although the IRS maintains significant data on tax return
preparers, it is not feasible to use the data to track, monitor, or control preparers’ activities or
compliance. Foremost, the IRS cannot determine the population of tax return preparers, which
tax returns they prepared, or which taxpayers they represent.5
To mitigate the effect of the IRS not being able to conclusively identify tax return preparers, the
EITC Office used a two-pronged approach to identify the population of tax return preparers for
its FY 2010 EITC Paid Preparer Strategy. Its approach included:
    •     Identifying the tax return preparers’ identifying numbers recorded on the tax return for
          the more than 24 million EITC claims filed for TY 2008. This number could be a tax
          return preparer’s Social Security Number (SSN) or PTIN.
    •     Matching the identification numbers captured above to a file containing PTINs to identify
          those individuals that used both an SSN and a PTIN to prepare tax returns claiming the
          EITC. This ensured the IRS included all tax return preparers in its population without
          including those who used both an SSN and a PTIN to file EITC claims more than once.

5
 Inadequate Data on Paid Preparers Impedes Effective Oversight (Reference Number 2009-40-098, dated
July 14, 2009).
                                                                                                      Page 5
                                    Actions Can Be Taken to Improve the
                             Identification of Tax Return Preparers Who Submit
                                Improper Earned Income Tax Credit Claims



    The IRS noted that the match to identify the PTIN was performed to increase the likelihood that
    it captured all tax return preparers who filed an EITC claim and eliminated the duplication
    caused by preparers who use both an SSN and a PTIN to file tax returns. The EITC Office
    identified approximately 526,000 tax return preparers who had prepared at least one EITC claim
    in TY 2008.
    In addition to identifying the population of tax return preparers, the IRS has consistently made
    changes to its methodology used to determine which preparers are potentially noncompliant.
    For FY 2010, the new methodology builds on the same risk-based concept the IRS employs in
    its EITC examination process. The new methodology involves:
       •   Using historical EITC information to develop 13 risk factors that are used to identify tax
           return preparers who are potentially noncompliant with the EITC Due Diligence rules.
       •   Analyzing the 13 risk factors and computing a risk score for each tax return preparer who
           filed an EITC claim in TY 2008. The risk score is then used to determine the type of
           compliance treatment each tax return preparer would receive. Those preparers with the
           highest risk score receive a Due Diligence Visit (DDV).6
Figure 4 compares the risk-based methodology used in FY 2010 to that of FY 2009.
             Figure 4: Comparison of FY 2009 and FY 2010 Methodologies for
                Identifying Potentially Noncompliant Tax Return Preparers

                       FY 2009                                                      FY 2010
Four risk factors used to identify potentially              Thirteen risk factors used to identify potentially
noncompliant tax return preparers.                          noncompliant tax return preparers.
Tax return preparer must have prepared at least             Tax return preparer must have prepared at least
25 tax returns with an EITC claim.                          25 tax returns with an EITC claim.
Used a simple metric to rank tax return preparers           Classifies tax return preparers by risk, volume of
for DDV selection – (Dependent Database Rule                EITC claims prepared, and percentage of
Break7 Tax Returns/Total EITC Tax Returns                   Dependent Database Rule Breaks for a suite of
Prepared).                                                  treatments, including DDV.
Source: The IRS’ FY 2009 DDV Selection Criteria and FY 2010 Risk-Based Scoring Methodology.

Figure 5 identifies the specific compliance treatment that is applied depending on a tax return
preparer’s risk category.

6
  A DDV is an examination to determine whether a paid preparer is in compliance with all four Due Diligence
requirements of IRC §6695(g).
7
  The Dependent Database is a risk-based audit selection tool used by the IRS to identify tax returns for audit. The
Dependent Database scoring system uses business rules to identify EITC noncompliance at the point of filing
through use of internal and external data elements. A Dependent Database Rule Break occurs when a return is
identified in this system as having the characteristic that violates these business rules.
                                                                                                              Page 6
                                Actions Can Be Taken to Improve the
                         Identification of Tax Return Preparers Who Submit
                            Improper Earned Income Tax Credit Claims



         Figure 5: EITC Paid Preparer Strategy Treatment Matrix—FY 2010
                         Low Risk            Medium Risk              High Risk

  Low Volume         Educational Letter    Compliance Letter      Compliance Letter


Medium Volume        Compliance Letter     Compliance Letter            DDV

                                           Knock & Talk Visit
  High Volume               N/A              or Compliance              DDV
                                                 Letter
                    Source: The IRS’ FY 2010 Risk-Based Scoring Methodology.

Our review of the IRS’ methodology determined that expanding risk factors and using the
computed probability score can further improve on the effectiveness of identifying high-risk
EITC tax return preparers.

Risk factors should be expanded to include previous tax year high-risk preparers
not subjected to a DDV
Risk factors used in FY 2010 did not include identification of tax return preparers identified as
high risk in the prior year that had not received a DDV. These tax return preparers did not
receive a DDV because they were included in the control group used to measure success of the
DDVs. The EITC Office measures the impact of its new risk-based scoring and selection
methodology by establishing a test group of preparers and a control group of preparers. For
example, in FY 2009, the EITC Office identified approximately 1,000 tax return preparers it
believed should receive a DDV. Of the 1,000 tax return preparers identified,
500 received a DDV (test group) and the remaining
500 did not (control group).
                                                                  High-risk tax return preparers
For FY 2010 the same process was used, splitting the            could be identified year after
identified high-risk tax return preparers into two               year and not be subjected
categories—those who will receive a DDV and those to             to a DDV as a result of the
be added to a control group. The problem with the IRS             process the IRS uses to
approach is that a tax return preparer could be identified         measure DDV success.
as high-risk and be included in the control group year
after year, thus never receiving a DDV. We raised our concerns to IRS management in
September 2009. Management agreed with our recommendation to include an additional risk
factor to identify whether the tax return preparer was included in the control group in the prior
year. However, because the risk-scoring process had already been completed for FY 2010,
management was unable to include this factor in the FY 2010 model. As an alternative,
representatives from the EITC Office manually selected all of the highest risk tax return
                                                                                               Page 7
                                 Actions Can Be Taken to Improve the
                          Identification of Tax Return Preparers Who Submit
                             Improper Earned Income Tax Credit Claims



preparers who had previously been in a control group to receive a DDV this year. The IRS
indicated an additional risk factor to address this condition will be added to the scoring model for
FY 2011.

Use of the probability score should be expanded to better identify high-risk
preparers to receive a DDV
Although the IRS developed a process that appropriately weighs the significance of the 13 risk
factors to compute a probability score to identify potentially noncompliant tax return preparers, it
minimized reliance on the score when identifying and selecting preparers for a DDV. Instead,
the IRS used the score, the volume of EITC claims the tax return preparer filed, and historical
data on the number of EITC claims per preparer that failed certain Dependent Database rules to
select tax return preparers for a DDV. However, the historical Dependent Database information
was already considered when the IRS computed the probability score. As a result, this
information was used twice in the IRS’ identification of high-risk tax preparers. The IRS
explained that it included the information regarding the Dependent Database rules to ensure
preparers selected had a sufficient number of questionable returns for a successful DDV.
However, this decision unintentionally placed 655 high-risk tax return preparers into a lower
treatment category.
Figure 6 provides a breakdown of the shift in the IRS’ identification of high-risk tax return
preparers if only the probability score and volume of EITC tax returns were used to identify the
high-risk tax return preparers for a DDV.
                      Figure 6: Effect of Modifying the Factors Used
                         to Select Tax Return Preparers for a DDV
                                                            Number of Tax Return Preparers
                          Adjustments                           Identified for a DDV
           Number of Tax Return Preparers
                                                                               1,013
           Identified by the IRS
           Negative Adjustment – Preparers Whose
                                                                               (378)
           Risk Was Scored Too High
           Positive Adjustment – Preparers Whose
                                                                                 655
           Risk Was Scored Too Low
           Adjusted Number of High-Risk
                                                                               1,290
           Preparers
          Source: Analysis of the FY 2010 non-first-time tax return preparers identified by the
          EITC Office.

By using factors already considered as part of the probability scoring process when categorizing
tax return preparers for treatment, the EITC Office inappropriately assigned additional weight to

                                                                                                  Page 8
                               Actions Can Be Taken to Improve the
                        Identification of Tax Return Preparers Who Submit
                           Improper Earned Income Tax Credit Claims



those risk factors, moving some higher risk preparers into a lower treatment category and vice
versa. We estimate the shift in tax return preparers within the DDV treatment category could
result in the IRS paying $25 million less in erroneous TY 2010 EITC claims that were filed by
tax return preparers. The value of erroneous EITC claims protected could exceed $125 million
over the next 5 years.
We estimated the amount of erroneous EITC claims protected by first quantifying the number
and amount of EITC claims for our population of high-risk tax return preparers and the IRS’
population of high-risk tax return preparers. We then used the IRS’ methodology for computing
the effect of the DDV on tax return preparer behavior to compare the estimated impact of the
Fiscal Year 2010 DDVs on the IRS’ population and our population. Appendix IV provides a
detailed description of the process we used to estimate the amount of EITC claims protected.
We discussed our concerns with IRS management, and they agree they could have relied more
heavily on the probability score when categorizing tax return preparers for treatment.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Include a risk factor in its computation of the probability score for tax
return preparers who were identified in a previous year as a high-risk tax return preparer and did
not receive a DDV because they were included in the measurement control group.
       Management’s Response: IRS management agreed with this recommendation.
       Instead of using a manual workaround, as they did in FY 2010, to give weight to
       high-risk tax return preparers previously included in a control group, they will include a
       specific risk factor in their future probability score computations.
Recommendation 2: Revise the process used to select high-risk tax return preparers for a
DDV to rely only on the preparer’s probability score and volume of EITC tax returns prepared.
       Management’s Response: IRS management disagreed with this recommendation.
       The high-risk EITC return preparers selected for a DDV are identified based on a formula
       that includes the probability score and volume of EITC tax returns prepared, but the IRS
       must also consider the most efficient use of its resources. The IRS’ current selection
       process maximizes the use of these resources. Also, since the IRS continually updates
       and enhances its risk-based scoring and selection methodology, management does not
       agree that they should limit the process to use only the probability score and volume
       because they may identify other important factors that should be considered.
       Office of Audit Comment: The EITC is the second highest Federal program with
       respect to the amount of improper payments. The IRS reports annual improper EITC
       payments totaling between $11 to almost $14 billion dollars. As such, we are concerned
       that IRS management did not agree to implement our recommendation that could result in

                                                                                            Page 9
                               Actions Can Be Taken to Improve the
                        Identification of Tax Return Preparers Who Submit
                           Improper Earned Income Tax Credit Claims



       further reducing erroneous EITC payments. Contrary to management’s assertion, our
       analysis identified that the IRS’ methodology does not result in the most efficient and
       effective use of the IRS’ limited DDV resources. Our methodology used the volume of
       EITC tax returns prepared and the IRS’ probability score which indicates the level of risk
       that a tax return preparer is not compliant with the Due Diligence rules. We identified
       more high-risk preparers, which is the reason our test and control group totals do not
       match the IRS’ totals.
       In addition, IRS questions the basis for our outcome measure. This is of particular
       concern as we used the same methodology the IRS uses to quantify the success of the
       DDV Program. Furthermore, the IRS is not correct that the outcome measure was based
       on TY 2006 information. We used TY 2008 information, which was the most current
       information available at the time of our computation and is the same data the IRS used in
       its FY 2010 study.

The Quality of Due Diligence Visits Limited Success of Efforts to
Reduce Noncompliance
Our analysis of the annual reviews conducted by the IRS to assess the quality of the DDVs for
the period FY 2007 through FY 2009 identified concerns with the performance of these visits.
For example these reviews showed:
   •   Inadequate case documentation is a recurring problem. Concerns with documentation
       include incomplete case files and no documentation supporting a penalty proposal or why
       penalties should not be proposed. Assessing penalties based on a DDV is an attempt to
       change the tax return preparer’s behavior (i.e., increase compliance with EITC rules).
       Although the DDV penalty rate in FY 2009 increased to 53.4 percent from 47 percent in
       FY 2007, the EITC Office indicated it believes the DDV penalty rate should be
       significantly higher.
   •   Group Managers’ reviews of DDVs were not always adequately performed. Although
       the quality assessments show improvement in the number of cases for which a manager
       review was conducted, these reviews were not always effective. Many, if not all, of the
       conditions these reviews should have identified prior to closing a case continued to occur,
       including insufficient documentation to support the penalty determination and failure to
       consider documented patterns of questionable behavior in the penalty determination.
Figure 7 shows the number of DDVs completed and penalties proposed in FYs 2005 through
2010.




                                                                                          Page 10
                                Actions Can Be Taken to Improve the
                         Identification of Tax Return Preparers Who Submit
                            Improper Earned Income Tax Credit Claims



                    Figure 7: EITC DDVs for Fiscal Years 2005–2010
                                    Number of        Percent of    Number of       Amount of
           Fiscal     Visits
                                    Preparers        Preparers      Penalties       Penalties
           Year     Completed
                                    Penalized        Penalized     Proposed        Proposed
            2005        413             138            33.4%            4,546        $454,600
            2006        255             121            47.5%            5,650        $565,000
            2007        469             222            47.3%            8,549        $854,900
            2008        485             234            48.2%            5,010        $501,000
            2009        509             272            53.4%            4,625        $462,500
            2010        393             367            93.4%           23,270      $2,327,000
         Source: The IRS’ EITC Office DDV results. Penalties shown only include IRC Section 6695(g)
         Due Diligence Penalties. FY 2010 information is as of June 18, 2010.

In an attempt to improve the quality of the DDVs, the EITC Office created and required the use
of an EITC Due Diligence Case Closure Checksheet when conducting the FY 2009 DDVs
(conducted between October 2008 and May 2009). This checklist required managers to initial
and date the Case Closure Checksheet to attest that they had reviewed the case file and accepted
the case for closure. A September 2009 review of the FY 2009 DDVs found that although
managers were initialing and dating the Case Closure Checksheet as required, documentation
issues continued. For example, some Revenue Agents continued to ask insufficient followup
questions during the visits, failed to document patterns of abusive behavior, or ignored abusive
behavior that they had documented. If managers were reviewing the cases as indicated by their
initials on the Checksheet, then these conditions should have been identified and corrected before
the case was closed.
Two of the factors that drive penalty rate assessments are the quality of the process to identify
tax return preparers for review and the quality of the visits. As we have reported above, the
EITC Office continually evaluates and improves its process to identify tax return preparers for
review; however, there is still more opportunity for further improvement.
The EITC Office relies on Revenue Agents from the IRS SB/SE Division to conduct the DDVs
each year. Our surveys of DDV Coordinators, Program Managers, and Program Analysts
identified a number of areas that can impact the quality of the DDVs. For example,
   •   Staff with no prior DDV experience are assigned to perform DDVs – According to
       the DDV Coordinators, 71 percent of the Revenue Agents performing the FY 2010 DDVs
       have never performed a DDV and 38 percent of the DDV Coordinators are new to the
       Program. The Coordinators indicated that this is a trend within the DDV Program.
       Management noted that all Revenue Agents receive extensive training and should be able
       to effectively perform a DDV.

                                                                                                      Page 11
                               Actions Can Be Taken to Improve the
                        Identification of Tax Return Preparers Who Submit
                           Improper Earned Income Tax Credit Claims



   •   Performance of DDVs competes with other workload priorities – The DDV Program
       is just one element of a Revenue Agent’s inventory. Completion of the visits must
       compete with other priority programs that are increasing in size and importance. As a
       result, some Revenue Agents may be less likely to give the DDVs the appropriate
       attention needed to ensure they are performed well.
   •   Examination Group Managers responsible for ensuring the quality of the visits are
       not consistently involved in the annual DDV training – DDV Coordinators indicated
       that overall, 70 percent of the Group Managers attended the DDV training. However,
       attendance was inconsistent among the seven geographical areas assigned to the DDV
       Coordinators. Two Coordinators had 100 percent attendance from their Group Managers.
       Attendance in the other 5 groups ranged from 9 percent to 74 percent.
Our review of the FY 2008 through FY 2010 Examination Annual Program Letters found the
letters mention EITC DDVs. However, the visits are combined with a list of other programs and
notated as “Other Priority Work.” This can create the perception that DDVs are not of equal
priority with the other programs that are specifically highlighted in the Annual Program Letter.
As a result, some Revenue Agents assigned to complete a DDV may not give DDVs the attention
required to ensure the visit is an effective part of the IRS’ efforts to improve tax return preparer
compliance.
When we discussed the quality of the DDVs with SB/SE Division management, management
indicated they were aware there is an issue with the quality of the visits. Management informed
us that inadequate case documentation is a consistent problem throughout the Examination
function and is not isolated to the DDV Program. They also informed us that they have had a
high rate of turnover in the Examination staff, making it difficult to ensure experienced Revenue
Agents are assigned to every program. Management indicated they were actively working to
improve quality, including case file documentation. Specifically, they indicated that the IRS
began an EITC workpaper improvement initiative in FY 2010. As part of this initiative, the IRS
revised training for both the DDV Coordinators and Revenue Agents, required all Group
Managers to attend the DDV training, and required the DDV Coordinator to return all cases that
do not meet minimum standards to the Examination group.
Initial results of the FY 2010 DDVs indicate significant improvement in the penalty rate
compared to FY 2009. According to the EITC Office, 93.4 percent of the DDVs completed as of
June 18, 2010, had a proposed DDV penalty. We believe this is due in large part to the
risk-based scoring and selection model the EITC Office used to identify potentially
noncompliant tax return preparers and improved execution of the visits due to the IRS’
Servicewide emphasis on the regulation of preparers. The Servicewide tax return preparer
initiative emphasized the importance both preparers and taxpayers play in compliance.




                                                                                            Page 12
                               Actions Can Be Taken to Improve the
                        Identification of Tax Return Preparers Who Submit
                           Improper Earned Income Tax Credit Claims



Recommendation
Recommendation 3: The Commissioner, SB/SE Division, should ensure DDVs are properly
performed, with adequate case documentation in support of the assessment/nonassessment of
penalties.
       Management’s Response: IRS Management agreed with this recommendation. The
       SB/SE Division is committed to a continuous quality improvement process to ensure that
       all EITC DDVs are conducted properly. The quality of examiner workpapers in FY 2010
       will be evaluated to identify opportunities for improvement, specifically, case
       documentation to support penalty determinations. The lessons learned will be
       incorporated into the annual area coordinator training and examiner training to prepare
       for the FY 2011visits.

Improvements Are Needed to Accurately Measure Effectiveness of the
Earned Income Tax Credit Paid Preparer Strategy on Reducing
Noncompliance
The goal of the EITC Paid Preparer Strategy is to improve tax return preparer compliance with
EITC Due Diligence rules, thereby reducing erroneous EITC payments. However, the IRS
cannot measure the effect of its efforts, including the performance of DDVs, on improving EITC
                                        compliance. The IRS’ most recent EITC Compliance
                                        Study was conducted in 2002 and assessed the compliance
    The IRS cannot measure the          of TY 1999 tax returns. The IRS has attempted to assess
     effect Due Diligence Visits
      have on improving EITC
                                        the level of EITC compliance since 2002. However, the
          noncompliance.                methodologies used were not consistent. These
                                        inconsistencies hinder the IRS’ ability to accurately
                                        determine if improvements have been made.
Currently, the IRS plans to use its 3-year rolling National Research Program Study for TYs 2006
to 2009 to update the EITC Improper Payment Rate annually, starting in 2010. The same
information reviewed in the TY 1999 compliance study will be available when the cumulative
data from the TYs 2006 to 2009 National Research Program Study are available in TY 2012.
Finally, Executive Order 13520, dated November 20, 2009, identifies the EITC as a high-priority
program for improper payments. This order requires the identification of EITC improper
payments, along with plans to prevent or recover improper EITC payments. We have a separate
audit that will assess IRS efforts to identify, prevent, and recover EITC improper payments. As
such, we will not be including specific recommendations to address the IRS’ inability to measure
improvements in EITC compliance as the result of DDVs in this report.



                                                                                         Page 13
                                    Actions Can Be Taken to Improve the
                             Identification of Tax Return Preparers Who Submit
                                Improper Earned Income Tax Credit Claims



Processes can measure the effect of DDVs on changing tax return preparer
behavior
The IRS has developed a method to quantify the effect of the change in tax return preparer
behavior resulting from its EITC Paid Preparer Strategy. IRS studies indicate the DDV is
generally effective at changing a tax return preparer’s behavior with regards to filing EITC
claims. Our analysis of the 541 tax return preparers who were selected for a DDV in FY 2009
confirmed the IRS’ observations. We found:
    •    414 (77 percent) tax return preparers appear to have changed their behavior. Of the 414,
         we found 295 tax return preparers were still filing EITC claims but were no longer
         identified as potentially noncompliant in the IRS’ FY 2010 analysis. The remaining
         119 tax return preparers appear to no longer be filing EITC claims. Although it appears
         these tax return preparers have changed their behavior, it is possible they are filing claims
         under a different SSN or PTIN than the one used in the prior year.8
    •    127 (23 percent) tax return preparers were still identified as being potentially
         noncompliant in the FY 2010 analysis or were identified for a streamlined injunction.9
         o   12 were identified as high risk, requiring a DDV or were identified for a streamlined
             injunction.
         o   115 were no longer identified as high risk, but were included in compliance
             categories that included receiving a Knock and Talk Visit or an education or
             compliance letter.
Despite the success of the DDV at changing tax return preparer behavior, our review determined
that proposed penalties resulting from deficiencies found during the DDV are not always being
timely assessed. The DDV penalty rate is one factor the IRS uses to evaluate the success of the
DDVs (i.e., that the selection methodology identified a noncompliant tax return preparer).
Delays in assessing DDV penalties may impact the effectiveness in changing the tax return
preparer’s behavior. In addition, delays also affect the IRS’ assessment of a tax return preparer’s
risk of noncompliance. The IRS considers proposed and assessed DDV penalties when
computing the tax return preparer’s risk score. However, the IRS weighs a tax return preparer’s
risk more heavily if the penalty was assessed at the time the score is computed than it does a
proposed penalty that has not been assessed. As a result, tax return preparers whose penalty



8
  We believe the IRS will be unable to determine if a tax return preparer continues to file EITC claims under a
different SSN or PTIN until it fully implements its tax return preparer registration process.
9
  A streamlined injunction is a process used to expedite the investigation and prosecution, when warranted, of
individual tax return preparers who have repeatedly demonstrated egregious behavior with regards to filing improper
EITC claims. The result of a successful injunction is a court order prohibiting the tax return preparer from preparing
tax returns.
                                                                                                             Page 14
                               Actions Can Be Taken to Improve the
                        Identification of Tax Return Preparers Who Submit
                           Improper Earned Income Tax Credit Claims



proposals are not assessed until after the IRS computes the risk score may have a slightly lower
risk score than those whose penalties were assessed timely.
Our review of IRS tax accounts for the 272 tax return preparers with proposed DDV penalties in
FY 2009 determined that as of April 22, 2010, 37 (14 percent) of the 272 proposed penalties had
not been assessed. These delays were frequently the result of tax return preparers exercising
their rights to appeal the proposed penalty.




                                                                                          Page 15
                                   Actions Can Be Taken to Improve the
                            Identification of Tax Return Preparers Who Submit
                               Improper Earned Income Tax Credit Claims




                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective of this review was to determine whether the EITC Paid Preparer Strategy
effectively identifies and addresses tax return preparer EITC noncompliance. To accomplish our
objective, we:
I.      Evaluated whether the IRS identifies and selects the most noncompliant tax return
        preparers for the purposes of the EITC Paid Preparer Strategy. We reviewed Strategy
        documentation and met with Wage and Investment Division personnel. We verified the
        accuracy of IRS data used to identify and select tax return preparers for the Strategy by
        using the Processing Year 2009 EITC Claimant File,1 the Processing Year 2009
        Dependent Database2 scored table, and the Individual Return Transaction File,3 to verify
        that preparers met the selection criteria to the extent possible.
II.     Analyzed the IRS’ process to identify tax return preparers for compliance treatments.
        Our analysis focused on the selection of tax return preparers for DDVs.4
III.    Evaluated the effectiveness of the DDVs by analyzing the IRS’ DDV training and
        conducting surveys of individuals within the SB/SE Division involved in the oversight
        and management of the DDV Program. We also assessed the SB/SE Division’s
        commitment to the DDV Program. We evaluated the EITC Office’s DDV quality review
        process and traced 273 FY 2009 DDV proposed penalties to the Master File5 to determine
        if the penalties had been assessed.
IV.     Assessed the IRS’ process to measure the effectiveness of the EITC Paid Preparer
        Strategy.




1
  The EITC Claimant File is a repository of information for EITC claim filed by individuals, including claims the
IRS disallows or adjusts during tax return processing.
2
  The Dependent Database is a risk-based audit selection tool used by the IRS to identify tax returns for audit.
3
  The Individual Return Transaction File is an IRS database containing personal, tax account, and other information
that has been transcribed from tax returns and most related schedules filed by individual taxpayers.
4
  A DDV is an examination to determine whether a paid preparer is in compliance with all four Due Diligence
requirements of IRC §6695(g).
5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 16
                               Actions Can Be Taken to Improve the
                        Identification of Tax Return Preparers Who Submit
                           Improper Earned Income Tax Credit Claims



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the risk-based scoring methodology used
to identify potentially noncompliant tax return preparers, the process used to select preparers for
compliance treatments, the DDV quality review process, the methodology for measuring the
effectiveness of the EITC Paid Preparer Strategy, and the SB/SE Division’s processes for
conducting DDVs.




                                                                                            Page 17
                             Actions Can Be Taken to Improve the
                      Identification of Tax Return Preparers Who Submit
                         Improper Earned Income Tax Credit Claims



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann L. Baiza, Audit Manager
Sandra L. Hinton, Lead Auditor
Linda L. Bryant, Senior Auditor
Lawrence R Smith, Senior Auditor




                                                                                     Page 18
                              Actions Can Be Taken to Improve the
                       Identification of Tax Return Preparers Who Submit
                          Improper Earned Income Tax Credit Claims



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Examination, Small Business/Self-Employed SE:S:E
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Exam Policy/Research, Small Business/Self-Employed SE:S:E:EP
Director, Earned Income Tax, Wage and Investment Division SE:W:ETARC:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Senior Operations Advisor, Small Business/Self-Employed SE:S:SF
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI




                                                                                     Page 19
                                    Actions Can Be Taken to Improve the
                             Identification of Tax Return Preparers Who Submit
                                Improper Earned Income Tax Credit Claims



                                                                                                 Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; $125,660,285 over the next 5 years in erroneous
    Earned Income Tax Credit claims filed by tax return preparers (see page 5).

Methodology Used to Measure the Reported Benefit:
We estimate the IRS can prevent an additional $125,660,285 in erroneous EITC claims filed by
tax return preparers over the next 5 years by adjusting the process it uses to determine which tax
return preparers receive a DDV.1
The IRS stratified the population of tax return preparers who had prepared EITC claims in the
prior year (non-first-time preparers) using the IRS’ risk probability score, specific Dependent
Database Rule Break criteria,2 and the number of EITC claims filed by each tax return preparer.
Using this analysis, the IRS identified 1,013 tax return preparers for a DDV in FY 2010. We
stratified the same population of tax return preparers using only the IRS’ risk probability score
and the volume of EITC claims prepared by each preparer. Our analysis identified 1,290 tax
return preparers for a DDV. Figure 1 compares the results of the IRS and TIGTA treatment
matrices.




1
  A DDV is an examination to determine whether a paid preparer is in compliance with all four Due Diligence
requirements of IRC §6695(g).
2
  The Dependent Database is a risk-based audit selection tool used by the IRS to identify tax returns for audit. The
Dependent Database scoring system uses business rules to identify EITC noncompliance at the point of filing
through use of internal and external data elements. A Dependent Database Rule Break occurs when a return is
identified in this system as having the characteristic that violates these business rules.
                                                                                                             Page 20
                                 Actions Can Be Taken to Improve the
                          Identification of Tax Return Preparers Who Submit
                             Improper Earned Income Tax Credit Claims



     Figure 1: Comparison of IRS and TIGTA Compliance Treatment Matrices
                       IRS Matrix                                          TIGTA Matrix
               Low      Medium       High                              Low       Medium       High
               Risk      Risk        Risk                              Risk       Risk        Risk
   Low                                                   Low
   Volume      1,560      9,936       551                Volume        8,539       3,376       132
   Medium                                                Medium
   Volume        2        5,982       468                Volume        1,099       5,157       196
   High                                                  High
   Volume       NA        4,684       545                Volume         NA         4,135      1,094
            Source: Analysis of the FY 2010 non-first-time paid preparers identified by the EITC Office.

To determine the impact of modifying the criteria the IRS uses to select tax return preparers for
DDVs on erroneous EITC claims, we used the IRS’ methodology for measuring the effectiveness
of the DDV Program.
The IRS methodology is based on the evaluation of the change in EITC filing behavior of a
sample test group and a control group. The IRS indicated that it needed to select a minimum of
400 tax return preparers to receive a DDV (test group) to ensure the results of its test obtained a
95 percent confidence level. The IRS had to select tax return preparers from 2 risk categories to
ensure it had at least 1,000 tax return preparers from which to select the test and control groups
(see Figure 1). The IRS employed oversampling to ensure that it identified at least 400 unique
tax return preparers for its test group. We generally used these same parameters. However, we
limited our assessment of the impact of our analysis to the 1,094 tax return preparers in the
highest risk category. Our population of tax return preparers in this category would have
provided the IRS ample opportunity to select the required 400 test group.
Using a random number generator, we generated 600 numbers to be used to identify the tax
return preparers in our population of 1,094 that would be in our test group. We eliminated
duplicate tax return preparers based on the 600 random numbers, resulting in a test group of
458 tax return preparers. The remaining 636 tax return preparers were considered our control
group. Figure 2 compares the IRS and TIGTA population, test group, and control group.
    Figure 2: IRS and TIGTA FY 2010 DDV Total Populations, Test and Control
                                                                    IRS                       TIGTA
   Total DDV Population Identified                                 1,013                       1,094
   Test Group (Receive DDV Treatment)                                509                        458
   Control Group (No Treatment)                                      504                        636
  Source: TIGTA analysis and the IRS’ FY 2010 Due Diligence test and control group data.


                                                                                                           Page 21
                                    Actions Can Be Taken to Improve the
                             Identification of Tax Return Preparers Who Submit
                                Improper Earned Income Tax Credit Claims



According to the IRS’ Due Diligence Results Study for Processing Year 2006,3 the DDV test
group (those who received a DDV) showed a 4.1 percent reduction in the amount of EITC paid
in the second year after the DDV. The control group showed a 3.7 percent increase over the base
year.
We identified tax return preparers with TY 2008 EITC returns using the TIGTA Data Center
Warehouse4 Processing Year 2009 EITC Claimant file as of December 11, 2009. Using this tax
return preparer file, we matched the IRS and TIGTA groups to pull and sum the EITC claims
paid for each tax return preparer. We then applied the change of behavior percentage rates from
the IRS study to the amount of EITC claims paid for the IRS and TIGTA test and control groups.
Figure 3 below shows the computation of the change in tax return preparer behavior for the IRS
and TIGTA tax return preparer populations.
                         Figure 3: Change in Behavior Computation:
                     IRS and TIGTA Population (Test and Control Groups)
                                                                      IRS                   TIGTA
     Test Group Total EITC Claims Paid                           $ 328,838,855           $514,550,044
     Percentage Change (Decrease)                                   (4.1) %                  (4.1) %
     Test Group Decrease in EITC Claims Paid                    $ (13,482,393)           $ (21,096,552)
     Total Test Group EITC Claims Protected                      $ 315,356,462           $ 493,453,492


     Control Group Total EITC Claims Paid                        $313,129,780            $786,586,485
     Percentage Change (Increase)                                    3.7 %                   3.7 %
     Control Group Additional EITC Claims Paid                   $ 11,585,802             $ 29,103,700
     Total Control Group Additional EITC Claims Paid             $ 324,715,582           $ 815,690,185
    Source: TIGTA analysis using the Data Center Warehouse.

TIGTA Analysis
The IRS’ measurement methodology to compute EITC revenue protected as the result of DDVs
adds the reduction in EITC claims paid to the test group and the increase in EITC claims paid to
the control group. The assumption is that had the control group received a DDV, the additional
EITC claims would not have been paid. Figure 4 shows the potential total change in behavior of
the IRS and TIGTA test and control groups.



3
    Due Diligence Results Study Processing Year 2006, dated March 2009 (Project Number 5-09-08-C-001E).
4
    The Data Center Warehouse provides data and data access services through the TIGTA Intranet.
                                                                                                          Page 22
                                 Actions Can Be Taken to Improve the
                          Identification of Tax Return Preparers Who Submit
                             Improper Earned Income Tax Credit Claims



        Figure 4: Comparison of IRS and TIGTA (Control and Test Groups)
                        Total EITC Claim Amounts Paid
                                                             IRS                       TIGTA
       Test Group Decrease in Dollars Paid              $ 13,482,393                 $ 21,096,552
       Control Group Increase in Dollars Paid           $ 11,585,802                 $ 29,103,700
       Total                                            $ 25,068,195                 $ 50,200,252
       Source: TIGTA analysis of estimated change in tax return preparer behavior.

Based on our analysis, we estimate our methodology for identifying tax return preparers for a
DDV would prevent the payment of $25,132,057 in erroneous EITC claims in FY 2010. We
estimate that the IRS could prevent payment of $125,660,285 in erroneous EITC claims over the
next 5 years.




                                                                                                    Page 23
               Actions Can Be Taken to Improve the
        Identification of Tax Return Preparers Who Submit
           Improper Earned Income Tax Credit Claims



                                                    Appendix V

Management’s Response to the Draft Report




                                                            Page 24
       Actions Can Be Taken to Improve the
Identification of Tax Return Preparers Who Submit
   Improper Earned Income Tax Credit Claims




                                                    Page 25
       Actions Can Be Taken to Improve the
Identification of Tax Return Preparers Who Submit
   Improper Earned Income Tax Credit Claims




                                                    Page 26
       Actions Can Be Taken to Improve the
Identification of Tax Return Preparers Who Submit
   Improper Earned Income Tax Credit Claims




                                                    Page 27
       Actions Can Be Taken to Improve the
Identification of Tax Return Preparers Who Submit
   Improper Earned Income Tax Credit Claims




                                                    Page 28
